Final Assessment Report 07-01, November 20, 2006, “Early Oracle Implementation:
Independent Verification and Validation (IV&V)”


The GPO Office of the Inspector General (OIG) is conducting ongoing Independent
Verification and Validation (IV&V) activities associated with GPO’s implementation of
the Oracle E-Business suite. GPO is implementing certain licensed modules of the
Oracle E-Business Suite in a series of Incremental Operating Capabilities (IOC). In
advance of IOC implementation, GPO initiated early implementation start-up projects to
become familiar with Oracle technology and work process dependencies, and to develop
successful project skills and user requirements. The OIG initiated IV&V activities
beginning with two of the early implementation projects. The objective of IV&V is to
provide GPO with an independent assessment of project status, satisfaction of user needs,
and project cost effectiveness. To conduct IV&V, the OIG contracted with a nonprofit,
scientific research and engineering corporation that operates in the public interest.

The OIG issued a sensitive report which summarizes the vulnerabilities identified during
the IV&V activities, recommendations to strengthen controls in order to mitigate the risks
associated with those vulnerabilities, and management’s response to those
recommendations. We consider management’s actions and proposed actions responsive
to each of the recommendations.
